No. 20-7160
3fn tfje Supreme Court of tlje fHntteiJ States
EMMETT GARRISON, IV
Petitioner
v.
STATE OF LOUISIANA
Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO THE LOUISIANA FIFTH
CIRCUIT COURT OF APPEAL

CERTIFICATE OF SERVICE

I certify that opposing counsel for all parties have waived service of a paper
copy of the Brief in Opposition to Granting Writ of Certiorari. Electronic service has
been made on all parties through their counsel of record as follows by the date of
electronic filing and mailing: May 21st, 2021.
Petitioner Emmett Garrison, IV, through his counsel Meghan Bitoun
(meghanbitoun@gmail.com')
PAUL D. CONNICK, JR.
DISTRICT ATTORNEY
By: s/ Darren A. Allemand
THOMAS BUTLER #22982
DARREN A. ALLEMAND #34847
ASSISTANT DISTRICT ATTORNEYS
200 DERBIGNY STREET
GRETNA, LOUISIANA 70053
(504) 368-1020

N

